                                                       IG-00-045




REVIEW
                        NASA'S INDEPENDENT COST ESTIMATING
REPORT                               CAPABILITY

                                  September 20, 2000




                       OFFICE OF INSPECTOR GENERAL
National Aeronautics
and
Space Administration
Additional Copies

To obtain additional copies of this review report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Reviews

To suggest ideas for or to request future reviews, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

      Assistant Inspector General for Auditing
      Code W
      NASA Headquarters
      Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

CFO             Chief Financial Officer
GAO             General Accounting Office
GS              General Schedule
IPAO            Independent Program Assessment Office
NPG             NASA Procedures and Guidelines
OMB             Office of Management and Budget
PMC             Program Management Council
SMO             Systems Management Office
W                                                                    September 20, 2000




TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:         INFORMATION: NASA's Independent Cost Estimating Capability
                 Report Number IG-00-045 Redacted Report*


The NASA Office of Inspector General has completed a review of NASA's Independent Cost
Estimating Capability. We found that NASA is taking steps to improve the Agency's
independent cost estimating capability by establishing a System's Management Office (SMO)1
at each Center and adding cost estimators in the Independent Program Assessment Office
(IPAO)2 at Langley Research Center (Langley). However, we found that NASA has not
identified the cost estimating and cost analysis function as a discipline with a specific job series,
has not established career development plans for its cost estimators, and does not have a
requirement to develop independent cost estimates at all major reviews. Further, we question
whether the Agency's reporting and funding structures provide assurance that the cost estimates
are independent in fact and/or appearance.

Background

A December 1990 report from the Advisory Committee on the Future of the U.S. Space
Program expressed concern with NASA's ability to provide realistic, nonadvocate cost reviews
of major programs and projects. The report noted that initial estimates of required resources
too often have been understated. In a September 1991 briefing to the Advisory Committee on
actions taken, NASA stated that it was enhancing the cost analysis capability of the Cost and

*We have redacted portions of this report under authority of exemption (b) (5) of the Freedom of
Information Act. The redacted portions of this report do not affect the validity of the report or
management's response.
1
  The SMO provides (1) support and independent evaluations of projects and programs for compliance with
and implementation of NASA guidelines; (2) leadership, consultation services, and technical expertise on
system engineering processes; and (3) support in forecasting costs for advanced program/project planning
initiatives.
2
  The IPAO serves as Agency lead for the independent technical and programmatic assessment of advanced
systems concepts and programs to provide Agency senior management with the information needed to
make sound decisions. Assessments may include the development of an independent cost estimate for the
program.
                                                                                                      2
Economic Analysis Branch within the Office of the Comptroller. However, a November 1992
evaluation from the General Accounting Office (GAO) found that NASA's actions to implement
an independent cost estimating function did not meet the intent of the Advisory Committee's
recommendation.

On September 7, 1993, the National Performance Review3 team issued its report, which
recommended that NASA continue to pursue and develop an independent cost estimating
capability. However, budget cuts and downsizing affected this effort. The subsequent
downsizing and relocation of the Cost and Economic Analysis Branch to the IPAO at Langley in
1996 left the Branch's cost estimators/analysts at Headquarters. During the time of the IPAO
move to Langley, my office performed an assessment4 of the IPAO's relocation to Langley.
The assessment concluded that the placement of the function at or under Enterprise or Center
management places the IPAO's independence and impartiality at risk. Further, the assessment
noted that each NASA Center, including Langley, receives funding from some Enterprise source
and that in such a fiscal environment, true independence and impartiality require that the function
reside with officials who have no stake in the competition for finite and dwindling program
funding.

On September 30, 1996, NASA management informed us that it planned to supplement the
Langley staff with experienced cost estimators. We agreed with this plan and concurred with
management's commitment to develop Langley's staff capabilities to include analyses during all
procurement phases in order to assure a comprehensive understanding of life-cycle program
and cost management. However, since 1996, a gradual attrition of the remaining cost
estimators has led to the loss of an independent cost estimating function within NASA.

In 1999, the Agency initiated plans to add eight full-time cost estimators to the IPAO to oversee
and validate SMO independent cost estimates. In October, the Agency reinstated the cost
estimating capability by directing each Center to establish an SMO with an independent cost
estimating capability.

The review my office recently completed is a follow-up effort to monitor the status of NASA's
implementation of an independent cost estimating capability. Our recommendations and
evaluation of management's response are discussed in the following paragraphs.




Recommendations

We recommended that the Chief Financial Officer direct the IPAO and SMO to submit a
summary of all independent cost estimates directly to the Administrator or other approving
3
  The National Performance Review was an intensive 6-month study of an interagency task force requested
by the President. The study provided a plan to fundamentally change the way the Federal Government
works and create a Government that works better and costs less.
4
  The NASA Office of Inspector General Inspections and Assessments Office issued "Assessment of the
Relocation of NASA Independent Program Evaluation & Assessment Activities to LaRC [Langley]," July 8,
1996.
                                                                                                   3
official for the program or project and establish an independent funding source for all
independent cost estimating activities. We also recommended that the Chief Engineer's Office
revise Agency policy to require that an independent cost estimate be performed at all major
reviews for comparison with the life-cycle cost estimate, identify a general schedule job series
for the professional cost estimator/analyst, and identify and develop core training requirements
for cost estimators Agencywide.

Management Response and OIG Evaluation

Management proposes to institute a requirement for an independent cost estimate after the
Critical Design Review and has established an inter-Center Cost Estimating Steering Group with
plans to address training requirements in the near future. We consider these two actions
responsive to the intent of the related recommendations.

Management partially nonconcurred with the recommendations related to establishing direct
reporting and independent funding for the IPAO and SMO's. With regard to reporting,
management stated that the independent cost estimates are transmitted to all NASA senior
management through the Internet and the Program Management Council (PMC) and believes
that this process assures the Administrator is provided with a complete disclosure of the IPAO's
independent cost estimate. However, it is unrealistic to expect the Administrator to review all
the estimates available through the Internet. Management comments reflect that only the PMC
minutes are forwarded to the Administrator. Therefore, we believe the independent cost
estimate, or a thorough summary of the estimate, should be part of the minutes package, a key
document upon which acquisition decisions are made.

Regarding independent funding, management stated that an independent funding source is in
place for the IPAO and that the Center Director is responsible for ensuring that the SMO
budget is sufficient. The Center Directors have the authority to transfer up to 10 percent of
Center funds among programs without notifying Headquarters. Because we believe that the
IPAO independent cost estimating mission could be adversely affected by this authority,
management should, as a minimum, require Headquarters approval prior to any adjustment to
the IPAO budget. Otherwise, the IPAO could be influenced by budgetary issues in making
their conclusions.

Further, we maintain that an independent funding source is needed for the SMO. We believe
that delegating responsibility to the Center Director for ensuring SMO budget sufficiency
without establishing minimum requirements provides Center Directors with a wide latitude in the
priority placed on funding for the independent cost estimating function. This approach could
result in an inconsistent capability among the Centers.

Management did not agree to identify one job series for cost estimators/analysts. Management
stated that there was little merit to limiting the pool of potential candidates through narrowly
defining the job series and that using several job series allows NASA to select the best-qualified
candidates from the widest pool possible. Management's position contradicts the IPAO's
position presented at a November 18, 1999, briefing when it stated that one of its objectives as
                                                                                                  4
a lead center for cost estimating was to establish cost estimating as a professional career
discipline at NASA and to overcome NASA's current culture of the nonprofessional
"journeyman" cost analyst. NASA currently uses the aerospace technologist and program
analyst series for cost estimating and analysis positions. We maintain that aerospace
technologists and program analysts do not enter the cost estimating/analysis positions possessing
all the skills necessary to be a competent cost estimator or analyst. They acquire those skills
over time through on-the-job experience or through training. To become a highly skilled cost
estimator/analyst requires years of experience and commitment to the cost estimating/analysis
profession. Stability in the cost estimating/analysis workforce is essential to overcoming
NASA's current culture of the nonprofessional "journeyman" cost analyst. Using various job
series enables personnel to easily enter and leave the cost estimating/analysis arena and go on to
other positions. We believe that a specific job series is essential to slowing the current attrition
rate of the cost estimating staff, establishing a stable and increasingly experienced workforce of
cost estimators, and recognizing cost estimating as a serious professional discipline.

A summary of the status of all the recommendations is in the finding section of the report.

[Original signed by]
Roberta L. Gross

Enclosure
 Final Report on the Review of NASA's Independent Cost Estimating Capability
          FINAL REPORT
REVIEW OF NASA'S INDEPENDENT COST
      ESTIMATING CAPABILITY
W                                                                        September 20, 2000


TO:              AE/Chief Engineer
                 B/Chief Financial Officer

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Review of NASA's Independent Cost Estimating Capability
                 Assignment Number A0001600
                 Report Number IG-00-045


The subject final report is provided for your use and comments. Please refer to the Executive
Summary for the overall review results. Our evaluation of your response is incorporated into
the body of the report. Management's corrective actions planned for recommendations 3 and 5
are responsive. These recommendations will remain open for reporting purposes until agreed-
to-corrective actions are completed and/or verified. With regard to recommendations 1, 2 and
4, we request that management submit additional comments by November 20, 2000. Also,
please notify us when actions have been completed on those recommendations. All
recommendations will remain open for reporting purposes.

If you have questions concerning the report or would like to schedule an exit conference, please
contact Mr. Daniel J. Samoviski, Program Director for the NASA Earth/Space Science Audits,
at (301) 286-6890, or Ms. Betty G. Weber, Evaluator, at (202) 358-2597. We appreciate the
courtesies extended to the review staff. See Appendix F for the final report distribution.

[Original signed by]

Russell A. Rau

Enclosure
                                                     2


cc:
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
M/Director, Independent Program Assessment Office
Contents
Executive Summary, i

Introduction, 1

Findings and Recommendations, 3

     Finding A. Requirements for Independence of Cost Estimates, 3

     Finding B. Independent Cost Estimates at Major Reviews, 7

     Finding C. NASA-Wide Cost Estimating Capability, 9

Appendix A - Objectives, Scope and Methodology, 13

Appendix B - Centers' Proposed Independent Cost Capability, 15

Appendix C - Reporting Structure for Independent Cost Estimates, 17

Appendix D - Related Requirements Documents, 19

Appendix E - Management's Response, 22

Appendix F - Report Distribution, 26
                         NASA Office of Inspector General
IG-00-045                                                                 September 20, 2000
 A0001600

      A Review of NASA's Independent Cost Estimating Capability

                                   Executive Summary

Background. Historically, program advocates have provided optimistic estimates of the likely
cost of their program when seeking management approval for resources. Higher acquisition
costs, project delays, and cancellation of major projects can occur when decisions are made
about funding programs without a clear understanding of the total cost of the acquisition.
Independent cost estimates, free of advocacy bias, are essential to obtaining a more realistic
understanding of the program's likely life-cycle costs and are becoming increasingly more
important to NASA as it continues to face shrinking budgets. The Office of Management and
Budget (OMB) requires that agencies tailor an acquisition strategy for each program and use
independent cost estimates, where feasible, for purposes of comparison with the program
advocates' cost estimates.

Objectives. Our overall review objective was to assess NASA's current and planned ability to
develop independent cost estimates in support of the Agency's program and project
management process. Specifically, we determined the adequacy of the Agency's qualification
requirements and career development plans and organizational structure for the cost estimating
function. Appendix A contains further details on our objectives, scope, and methodology.

Results of Review. The planned organizational structures for the independent cost estimating
function at the IPAO and SMO's may not provide for independent reporting of findings directly
to the approving official unless the report is specifically requested by the approving official.
Also, the IPAO and SMO's are funded through the Centers--a process that may hinder the
offices' independence. Consequently, the Agency has no assurance that the opinions,
conclusions, and recommendations made to the Administrator on acquisitions for Agency
programs and projects are independent in fact and appearance (Finding A).

Agency policy requires independent cost estimates only for program new starts, while life- cycle
cost estimates are required at each major review. Because life-cycle cost estimates are not
subjected to independent cost estimate comparisons, NASA has no assurance that the program
life-cycle cost estimates, established at each review, are realistic (Finding B).

The Agency has not identified the cost estimating and cost analysis function as a discipline
requiring a specific job series and has not established career development plans for its cost
analysts and cost estimators. As a result, the quality of cost estimating and cost analysis support
available at each Center is inconsistent (Finding C).
Recommendations. To ensure that requirements for independence are met, NASA should
ensure that copies of independent cost estimates are submitted directly to the Administrator or
other approving official and establish an independent funding source for the IPAO and SMO's.
Also, we recommended that management revise Agency policy to require that an independent
cost estimate be developed at all major reviews of major programs. Further, NASA
management should establish the cost estimating and cost analysis function as a specific position
and develop corresponding standards and career development training requirements and plans.

Management's Response. Management partially nonconcurred with the two
recommendations to establish independent funding and reporting structures for independent
cost estimating activities. Management believes that the current reporting and funding structures
assure independence of the IPAO and SMO's. Management concurred with the
recommendation to require an independent cost estimate at major reviews and agreed to
institute a requirement for an independent cost estimate after the Critical Design Review.
Management nonconcurred with the recommendation to identify a specific job series for cost
estimators/analysts, stating that there is little merit to establishing a specific job series for cost
estimators but concurred with the recommendation to develop career development training
requirements and plans. Management stated that the Agency has established an inter-Center
Cost estimating Steering Group to identify and develop core training requirements for cost
estimators Agencywide.

The complete text of the response is in Appendix E.

Evaluation of Management's Response. Management's plan to develop an independent
cost estimate after the Critical Design Review and to develop core training requirements for cost
estimators is responsive to two of the recommendations. However, management's position on
the reporting and funding process for the IPAO and SMO's is not fully responsive to ensuring
independence for the cost estimating function at those activities. Management's comments
reflect that, at the Agency level, only the PMC minutes are forwarded directly to the
Administrator. Therefore, we believe that the IPAO independent cost estimate, or a thorough
summary, should be part of those minutes. Further we believe that Headquarters' approval is
needed prior to adjusting the IPAO budget. In relation to the SMO's, the current practice of
making the Center Directors responsible for ensuring SMO budget sufficiency without
establishing minimum requirements gives the Directors wide latitude in the priority they place on
funding the SMO function. Therefore, we believe that an independent funding source is need
for the SMO's. Regarding the identification of a single job series for cost estimators,
management did not address our concerns regarding credibility and professionalism in the cost
community. Therefore, we request that management further review its position on these matters
and provide additional comments in response to the final report.




                                                  ii
Introduction

A December 1990 report from the Advisory Committee on the Future of the U.S. Space
Program to the Administrator of NASA expressed concern with NASA’s organizational
structure and its ability to provide NASA with realistic, nonadvocate cost reviews and
assessments of major programs and projects. The report states that NASA is
oversubscribed in terms of the projects it is pursuing and that one of the reasons for this
situation was because initial estimates of required resources too often have been
understated, particularly with regard to cost. The report states:

        NASA … has been embarrassed … by less than accurate estimates of projects
        costs. The causes are well understood, and include program initiation before
        enabling technology is proven, overselling on the part of program advocates, both
        in government and industry, and failure to include all costs when evaluating a
        program. With programs becoming ever more costly and complex, it now appears to
        be an appropriate time for the Administrator to have access to a highly skilled and
        independent cost estimating and analysis capability. … In short we suggest … That
        an independent cost analysis group be formed to serve the Administrator and the
        Administrator’s staff. This group should be charged with the responsibility of
        providing to the Administrator a recommendation on all significant cost estimates
        provided to the Congress or to the Office of Management and Budget.

NASA’s response to the report recommendations consisted of establishing a Program
Management Council (PMC), chaired by the Deputy Administrator. To aid the PMC in
nonadvocate reviews, the Agency established the Systems and Cost Analysis Division
within the Office of the Chief Financial Officer (CFO) at NASA Headquarters. When
Headquarters downsized in 1996, the Division's program evaluation function transitioned to
Langley Research Center and the IPAO was established without a cost estimating
capability. Although the cost estimating and analysis function remained at Headquarters,
over time personnel in these positions left, and the Office of the CFO also lost its capability
to perform cost estimates. NASA’s current cost estimating and cost analysis community
consists of approximately 20-24 aerospace technologists and program analysts at NASA
Centers who provide cost estimating support to Center program and project offices and
Center management. Because those personnel are within the chain of program advocacy,
their cost estimates do not meet the requirements of an independent cost estimate.

Recently, NASA reaffirmed the need for independent cost estimating when the
Administrator directed that the Centers establish an SMO with an independent cost
estimating capability to support Center programs and projects (see Appendix B).
Establishment of Center SMO's began in October 1999. The SMO's will provide
consulting and advisory services to Center program and project managers on formulation
and implementation processes and best practices and will report results of independent
assessments to the Center Governing Program Management Council. SMO's will also
serve as the Executive Secretary or Member of the Center Council. The SMO may also
serve as a member of the Program/Project Management Council Working Group.

To oversee and validate the independent cost estimates developed by the Centers,
management plans to add eight cost estimating positions to the IPAO. In September
1999, the NASA Chief Engineer directed that the IPAO become NASA's lead cost
estimating office. To implement the capability, a draft Memorandum of Understanding,
establishing the eight full-time cost estimators in the IPAO, was developed for the review
and approval of management. The eight cost estimators will assist the Center SMO's in
developing independent cost estimates and will report to the Chief Financial Officer (CFO)
at Headquarters.

At the time of our review, the draft Memorandum of Understanding had not yet been
approved. However, the IPAO has three people assigned to cost estimating duties and is
actively seeking cost estimators or cost analysts to fill the remaining billets.


Finding A. Requirements for Independence of Cost Estimates

The proposed organizational structure for the independent cost estimating function will not result
in the independence required by Federal and Agency policies. The proposed reporting
structure does not provide for IPAO control over the final reporting of its findings to the
Administrator. In addition, the major responsibility for the independent cost estimating function
is being delegated to the SMO's that are funded by and report to the Centers where they are
located. As a result, NASA will have no assurance that the opinions, conclusions, and
recommendations made to the Administrator or other approving official are independent in fact
and appearance.

Organizational Independence for Independent Cost Estimates

OMB Circular A-109, "Major Systems Acquisition," April 1976, states that the acquisition
strategy should maintain a capability to (1) estimate life-cycle costs during system design
concept evaluation and selection, full-scale development, facility conversion, and production and
to (2) use independent cost estimates, where feasible, for comparison purposes.

NASA Procedures and Guidelines (NPG) 7120.5A, "NASA Programs and Project
Management Processes and Requirements," April 1998, states that for proposed new program
and project starts, the NASA Chief Engineer is responsible for providing independent cost
estimates conducted by a team from organizations outside the advocacy chain of the program or
project.

A clear, strong organizational structure is critical to ensuring an independent cost estimating
function. The General Accounting Office’s "Standards for Internal Control in the Federal
Government," Report GAO/AIMD-00-21.3.1, dated November 1999, states:

        A positive control environment is the foundation for all other standards … [A]
        factor affecting the environment is the agency’s organizational structure. It provides
        management’s framework for planning, directing, and controlling operations to
        achieve agency objectives. Good internal control requires that the agency’s


                                                     2
        organizational structure clearly define key areas of authority and responsibility and
        establishes appropriate lines of reporting.


The General Accounting Office issued Report GAO/NSIAD-93-73 “NASA's Independent
Cost Estimate," November 1992. The report states:

        Estimates and advice provided to the Administrator by the cost analysis group need
        to be independent in fact and appearance so that the group's opinions, conclusions,
        and recommendations will be impartial and viewed as impartial by third parties.


Reporting Structure for Independent Cost Estimating Activities

The draft Memorandum of Understanding to provide a cost estimating capability in the IPAO
requires the cost estimating function to report to the Office of the CFO. The IPAO cost
estimating team will receive its cost estimation and analysis assignments primarily from the Office
of the Administrator and the Office of the CFO. For those assignments, the cost estimators will
report directly to those offices. Estimates and analyses requested by Centers and Enterprises
will be reported to the requesting Center or Enterprise. The diagram in Appendix C
demonstrates how IPAO information may pass through one or more levels of management
before reaching the Administrator. This reporting process makes it possible for
misinterpretations of IPAO issues or positions to occur prior to submission to the Administrator.
Further, because Centers/Enterprises are advocates for their programs/projects, their positions
and recommendations on the status of a program/project could be viewed as biased. The
Administrator could, therefore, make a decision based on incomplete or inaccurate information.
To ensure the integrity of IPAO positions, a summary of each IPAO independent cost estimate
report should be sent directly to the Administrator or other approving official for the program or
project.

Each Center will develop most independent cost estimates for the programs/projects at their
Center. The IPAO, as the lead cost estimating office, will assist and support the SMO's. The
SMO independent cost estimate may pass through and gain input from as many as four groups
before it reaches the Administrator or the approving authority for Center programs or projects.
As a result of the organizational structure, the SMO's cost estimates may not meet the
requirements for independence. Appendix C shows a summary of the reporting structure for
the SMO independent cost estimate.

Resource Structure for Independent Cost Estimating Activities

The draft Memorandum of Understanding states that the IPAO will submit cost estimating
budget requirements to the Office of the CFO through the Institutional Program Office in
response to the annual budget call from the Office of Aerospace Technology. The budget for
the IPAO role as cost estimator will come from the Office of the CFO, with the exception of
funds budgeted for travel, personnel, and other miscellaneous costs. This funding arrangement
may be an impediment to independence for IPAO staff and activities. Enterprises and Centers
compete for scarce resources. Funding the IPAO staffing, travel, and other costs through the
Office of Aerospace Technology and Langley may be viewed as an impairment to organizational
                                                    3
independence because the IPAO could be viewed as an advocate for the Office of Aerospace
Technology or Langley programs and projects. To avoid the appearance of advocacy, the
IPAO should be funded under a separate line item in the budget, independent of Langley and
the Office of Aerospace Technology.

Each SMO is located at and receives resources from the Center where they are located. This
organizational structure creates a barrier to the independence of the SMO's cost estimates
submitted to management because the Center SMO can be viewed as an advocate for its
respective Center's programs and projects. To meet requirements for independence, the SMO
should also be independently funded.

Conclusion

Although the proposed addition of a cost estimating capability for the IPAO and the
establishment of the SMO’s are positive steps toward correcting a serious shortfall in the
independent cost estimating capability within NASA, we question whether these organizations,
as structured, will meet the requirements for independent cost estimates that are free of influence
from program advocates. In our opinion, the planned IPAO and SMO independent cost
estimate reporting and funding structure does not provide for independent reporting. The IPAO
cost estimate will not meet the requirements of independence because the IPAO has no control
over the final information reported to the Administrator and will be funded through the Office of
Aerospace Technology and Langley. Further, the SMO's will not meet the requirements for
independence because they may not be reporting directly to the Administrator or the delegated
approving official and will be funded by the Centers.

Recommendations, Management's Response, and Evaluation of
Response

The NASA CFO should:

   1. Direct that, for NASA programs governed by NPG 7120.5A, the IPAO and
   SMO submit a summary of each independent cost estimate directly to the
   Administrator or other approving official for the program or project.

Management's Response. Partially nonconcur. Management stated that the SMO's
reporting process is a function of each Center's procedures and in general, their independent
cost positions are presented to the approval official at the Centers. Management stated that
independent estimates are transmitted to the Administrator through the Internet and that the
Administrator receives the minutes of the PMC. Management further stated that this Agency-
level reporting process provides the Administrator a complete and accurate record of the
IPAO's independent cost estimate.

The complete text of management's comments is in Appendix E.


                                                 4
Evaluation of Management's Response. Management's comments are not fully responsive.
Delegating the SMO's reporting process to the Centers without providing guidance or
requirements provides no assurance that the SMO's independent cost positions are presented
directly to the approving official at the Centers. Further, although we recognize that the IPAO
reporting process provides visibility of the IPAO independent cost estimates on the Internet,
management's comments reflect that only the PMC minutes are forwarded to the Administrator
for information prior to making acquisition decisions. Because the IPAO does not review the
final PMC minutes prior to publication, and because it is unrealistic to expect the Administrator
to review the independent cost estimates on the Internet, we believe that the independent cost
estimate, or a thorough summary of the estimate, should be part of the PMC minutes forwarded
to the
Administrator. Therefore, we request that management reconsider its position and provide
additional comments that specifically address the assurance of independence in current IPAO
and SMO reporting processes.

   2. Establish an independent funding source for all independent cost estimating
   activities by the IPAO and the SMO's.

Management's Response. Partially nonconcur. Management stated that, in the case of the
IPAO, such an independent funding source is in place because the Headquarter's budget
provides funds for the IPAO. With respect to the SMO's, the Center Director is responsible
for ensuring that the SMO budget is sufficient.

The complete text of management's comments is in Appendix E.

Evaluation of Management's Response. Management's comments are not fully responsive.
Regarding the IPAO budget, we understand that the Centers have authority to transfer up to 10
percent of Center funds among programs without notifying Headquarters and that Headquarters
may be unaware of these transfers until the end of the fiscal year. Because this situation has the
potential to adversely affect the IPAO's ability to fulfill its mission, we believe that management
should, as a minimum, require approval by the Chief Engineer's Office prior to any adjustment
to the IPAO budget by the Centers. Such an action would satisfy the intent of the
recommendation.

Further, delegating responsibility to the Center Director for ensuring SMO budget sufficiency
without establishing minimum requirements provides Center Directors with a wide latitude in the
priority placed on funding for the independent cost estimating function. This approach could
result in an inconsistent capability among the Centers. Therefore, we maintain that an
independent funding source is needed for the SMO's and request that management further
review its position and provide additional comments in response to the final report.




                                                 5
Finding B. Independent Cost Estimates at Major Reviews

Management does not use independent cost estimates in the decisionmaking process at each
major review of a program. Agency policy requires an independent cost estimate only for new
starts while requiring life-cycle cost estimates at each major review. As a result, NASA has no
assurance that the program life-cycle cost estimates, established at each major review, are
realistic.

Life-Cycle Cost Estimates and Independent Cost Estimates for Major Acquisitions

OMB Circular A-109 requires an acquisition strategy for major system acquisitions. The
Circular states that each agency acquiring major systems should estimate life-cycle costs at each
major milestone and use independent cost estimates, where feasible, for comparison purposes.
Summaries of this and other related regulations are in Appendix D.

NPG 7120.5A states that the NASA Chief Engineer is responsible for providing independent
cost estimates for proposed new starts but also states that life-cycle cost management and
accounting requires the program manager to develop life-cycle cost estimates in support of
major reviews and budgetary submissions.

Independent Cost Estimates at Major Reviews

Successful program and project management requires accurate cost estimates. Management
decisions regarding program approval and a program's requirements and configuration are
heavily influenced by the expected cost of the program. However, early in the program, the
requirements may not be well defined, and cost estimates may be based on technical
generalizations and historical cost data that do not adequately capture the technology and
potential cost of the proposed system.

As time passes, a program's technical definition will become more refined, and actual program
cost data will become available. With this knowledge, the estimator can formulate more
accurate cost estimates. For this reason, frequent updates of life-cycle cost estimates become
important tools for management decisions. Because life-cycle cost estimates are prepared by
the program office, independent cost estimates are essential for comparison to the life-cycle cost
estimate so that management can determine whether the life-cycle cost estimates are realistic. A
revision of NPG 7120.5A is necessary to ensure the development of independent cost estimates
at each major review for comparison with the life-cycle cost estimates that are developed by the
program office.

Conclusion

A major internal control for a life-cycle cost estimate or program office estimate is an
independent cost estimate. The independent cost estimate serves as a check and balance and is
unconstrained by the assumptions, methodologies, or biases inherent in program

                                                6
office, life-cycle cost estimates. By comparing the program's estimated life-cycle cost estimate
with the independent cost estimate, NASA management can determine whether the program or
project life-cycle cost estimate is realistic.

Recommendations, Management's Response, and Evaluation of
Response

3. The Chief Engineer's Office should revise NPG 7120.5A to require that an
independent cost estimate be performed at all major reviews for programs and be
compared with the life-cycle cost estimate developed at each major review.

Management's Response. Concur, with modifications. Management stated that NASA
conducts cost assessments annually as part of the Independent Annual Review process. In
addition, independent cost estimates are done during a nonadvocate review or independent
assessment. Management also stated that it will institute a requirement for another independent
cost estimate after the Critical Design Review.

The complete text of management's comments is in Appendix E.

Evaluation of Management's Response. The action planned by management is responsive
to the recommendation. The recommendation is resolved but will remain undispositioned and
open until agreed-to corrective actions are completed.



Finding C. NASA-Wide Cost Estimating Capability

The Agency has not established standardized skills and competencies for its cost
analysts/estimators or Agency-wide processes and procedures for cost estimating and analysis.
Management has not followed Federal guidelines to establish the cost estimating and analysis
function as a specific general schedule5 (GS) job series6 with a clear definition of professional
competencies. Further, management has no career development plans for NASA cost
estimators/analysts. As a result, the quality of cost estimating and cost analysis support available
to program/project offices is inconsistent among NASA Centers.




5
  The general schedule is the broadest subdivision of the classification system covered by Title 5,
U.S. Code. The general schedule includes a range of levels of difficulty and responsibility for positions for
grades GS-1 to GS-15. "GS" designates the general schedule for supervisory and nonsupervisory positions
at all of those grade levels.
6
  A series is a subdivision of an occupational group consisting of positions similar as to a specialized line of
work and qualification requirements. A title and number such as the Accounting Series, GS-510; the
Secretary Series, GS-318; and the Microbiology Series, GS-403, designate series.
                                                       7
Federal and Agency Guidance

Title 5, U.S. Code, Sections 5105-5107, state that positions shall be classified based on the
duties and responsibilities assigned and the qualifications required to do the work.

Title 5, U.S. Code, Section 4103, states that each agency shall establish, operate, maintain, and
evaluate a program or programs and a plan or plans for the training of employees to assist in
improving employee and organizational performance.

The GAO states in report GAO/GGD-99-179, "Human Capital, A Self-Assessment Checklist
for Agency Leaders," that a high-performance organization demands a dynamic, results-oriented
workforce … must match the right people to the right jobs and … talent must be continuously
developed through education, training, and opportunities for continued growth.

Job Series Structure and Career Development Plans for NASA Cost Estimators

Identification of a specific job series and career development plans for cost estimators/analysts
are essential for establishing a highly proficient cost estimating community within NASA.

•   Job Series. The Agency has used several general schedule job series to identify its cost
    estimators and analysts. For example, the Agency has used the (1) GS 800: Engineering
    and Architecture series; (2) GS 300: General Administrative, Clerical, and Office Services
    series; and (3) GS 1500: Mathematics and Statistics series. While each of the position's
    descriptions provides some of the required skills and training, none fully addresses the
    requirements of a professional cost estimator or analyst. The result is a cost community
    whose entry-level members lack the full complement of skills and training needed to become
    competent cost estimators or analysts.
    Currently, the IPAO is staffed with aerospace technologists and program analysts who
    manage and coordinate the activities of the independent annual review,7 independent
    assessment,8 and nonadvocate review9 teams. The planned cost estimating positions will
    fulfill a new function that is not being performed by the IPAO. The cost estimators will be
    developing independent cost estimates; providing advice and support to the Center SMO's;
    and providing economic analyses, cost-benefit studies, and full-cost accounting expertise
    and other services. Management needs to identify a single job series for the cost
    estimator/analyst positions. In our opinion, NASA’s current practice of using more than
    one job series to identify cost estimators/analysts impedes the cost community from
    achieving the credibility and professional stature necessary to acquire recognition for their
    professionalism and unique value to NASA management.


7
  An independent annual review informs the PMC of the status and performance of the programs and
projects over which it has responsibility
8
  An independent assessment provides the PMC with an in-depth, independent validation of the advanced
concepts, program requirements, design integrity, realism of schedule, life-cycle, etc.
9
  A nonadvocate review provides the NASA PMC an independent verification and evaluation of a new
program or selected project's readiness to proceed prior to program approval.
                                                      8
•   Career Development Plans . The Agency has no career development program or career
    progression plan for cost estimators and analysts. NASA cost estimators generally learn
    required skills they lack during on-the-job training. This could restrict new ideas and
    implementation of the most recent concepts and methodologies being researched and
    developed by the general cost community.

    When the draft Memorandum of Understanding is approved, the IPAO plans to establish,
    as part of its expanded mission, Agency-wide quality control through the establishment of a
    career development plan and training for cost estimators. Plans are to identify requirements
    for courses and skills that will result in a professional cost community with a full complement
    of skills required for all cost estimators and cost analysts in NASA. The IPAO also plans
    to develop a standardized catalog of tools and to identify common skills for all cost
    estimators with the goal of increasing Agency efficiency through the elimination of
    duplication of efforts and competition among the Centers. As of the time of our review,
    plans were not sufficiently complete for us to determine whether all critical job skills and
    training requirements will be included in the career development plans.

Because of the diversity of skills needed by cost estimators and analysts, it is essential that the
career development plans be sufficiently comprehensive to meet the needs of a diverse
workforce of cost estimators and analysts. A well-qualified cost estimator must have skills and
training in a variety of areas including, accounting, budgeting, engineering, statistics,
mathematics, economics, program management, acquisition, and modeling. The GS 300, GS
800, or the GS 1500 job series do not provide candidates that have training or sufficient
experience to meet all of these requirements. Using the GS 800 job series would provide
candidates with expertise and background in mathematics, physics, and engineering. However,
the GS 800 positions do not require training or background in program management,
accounting, economics, statistics, acquisition, and/or the Government budgeting process. Cost
estimators under the GS 1500 series, while having background and training in statistics,
mathematics, and modeling, may not have the required training in the areas of finance or
engineering. On the other hand, the GS 300 series would provide personnel with a background
or training in budgeting and perhaps accounting, and other financial areas, but no training or
experience in statistics, mathematics, and/or with the technical sciences.

Conclusion

Regardless of the job series the Agency identifies for cost estimators/analysts, the wide range of
skills required for the cost estimating/analysis discipline will make it difficult for NASA to find
individuals with all the desired characteristics. Hiring cost estimators who only partially meet the
requirements means that they must learn the other required skills on-the-job or through a formal
training program. For this reason, comprehensive and well-planned career development
programs are crucial for the upgrading and improvement of skills for NASA’s cost community.
The planners need to include skills related to environmental costs, accounting, budgeting,



                                                 9
procurement, economics, program management, regression analysis10 and cost risk, as well as
the technical, engineering, mathematical, and modeling skills, in career development plans.

Recommendations, Management's Response, and Evaluation of
Response

The Chief Engineer should direct the Director of the Independent Program
Assessment Office to:

     4. Identify a general schedule job series that most closely provides the unique
     skills and training required for a professional cost estimator/analyst.

Management's Response. Nonconcur. Management stated that NASA's current practice of
using more than one job series allows NASA to select the best-qualified candidates from the
widest pool possible and that narrowing the pool to a specific job series would significantly
reduce potential candidates.

     5. Identify and develop core training requirements consisting of all the skills and
     training required for cost estimators Agency-wide.

Management's Response. Concur. Management stated that an inter-Center Cost Estimating
Steering Group has been established to address this recommendation in the near future.

The complete text of management's comments is in Appendix E.
Evaluation of Management's Response. We do not agree with NASA's position regarding
the use of more than one job series for cost estimators and maintain that there is a legitimate
need to identify a specific series so that, once skills are learned, they are more likely to be
retained in the cost community. In a November 18, 1999, briefing to management on its
proposed role as lead center for cost estimating/analysis, the IPAO (1) noted that NASA's cost
estimating staff had experienced more than a 40-percent attrition rate since the Headquarters
Systems and Cost Analysis Division was first established; (2) stated that one objective of the
lead center would be to establish cost estimating as a serious professional career discipline at
NASA; and (3) observed that NASA's current culture in cost estimating and analysis is the
"non-professional 'journeyman' cost analyst."

We maintain that to achieve the IPAO's stated objective and overcome the noted challenges, a
specific job series for cost estimators is essential. Aerospace technologists and program
analysts do not enter cost estimating/analysis positions possessing all the skills necessary to be a
competent cost estimator or analyst. Rather, they acquire those skills over time through on-the-
job experience or training. To become a highly skilled cost estimator/analyst requires years of
experience and commitment to the cost estimating/analysis profession. Using various job series
enables personnel to easily enter and leave the cost estimating/analyst arena and go on to other

10
  Regression analysis is the part of statistics that deals with investigation of the relationship between two
or more variables whose relationship may be expressed as a mathematical equation.
                                                        10
(aerospace technologist and program analyst) positions. As a result, the skills that they have
acquired as cost estimators are lost to the Agency's cost community. This cross-over flexibility
that currently exists makes it more difficult for management to establish a stable cost estimating
community whose members remain in the cost estimating/analysis arena long enough to mature
as cost analysts and to become increasingly more competent. Stability in the cost
estimating/analysis workforce is essential to overcoming NASA's current culture of the
nonprofessional journeyman cost analyst, lowering the attrition rate, and establishing cost
estimating and analysis as a professional career discipline.

Further, we maintain that if basic skills are identified and a job series is selected based on the
basic skills required, personnel in other job series, such as the 343 or 801 series, could qualify
for the job if they possessed the basic skills.

A stable, committed, and increasingly experienced workforce of cost estimators is required if
NASA wants to view and establish cost estimating as a serious professional discipline.
Therefore, we consider management's comments unresponsive and the recommendation as
unresolved and undispositioned. We request that management further review its position on
recommendation 4 and provide additional comments on the final report.

Management's planned action in relation to the established inter-Center Cost Estimating Steering
Group is responsive to recommendation 5. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.




                                                11
              Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall objective was to assess NASA's current and planned processes for preparation and
use of independent cost estimates. Specifically, we evaluated:

•   planned staffing to support NASA's independent cost estimating function,
•   the qualification requirements for cost estimators/analysts,
•   career development program and training planned for the cost analysts/estimators, and
•   adequacy of planned independent cost estimating support for NASA decision-makers.

Scope and Methodology

To accomplish our objectives, we obtained an overall understanding of the mission, processes,
and procedures in place for the function of the IPAO. We also reviewed IPAO workload,
fiscal year 2000 schedule, and ongoing plans to enhance the IPAO cost estimating capability.
We performed interviews of:

•   personnel in the Independent Program Assessment Office at Langley Research Center and
•   Headquarters CFO personnel.

We identified and reviewed the following relevant Federal and NASA regulations on
independent cost estimating, personnel management and training, and internal controls:

•   OMB Circular A-11, "Preparing and Submitting Budget Estimates," July 1999.
•   Supplement to OMB Circular A-11, Part III, "Planning, Budgeting, and Acquisition of
    Capital Assets," July 1999.
•   OMB Circular A-109, "Major System Acquisition," April 1976.
•   OMB Circular A-123, "Management Accountability and Control," June 1995.
•   Office of Personnel Management Operating Manual, undated.
•   Title 5, U.S. Code, Chapter 41, "Training," January 1999.
•   NPG 7120.5A, "NASA Program and Project Management Processes and Requirements,"
    1998.

We reviewed prior related studies, assessments, and audits.

•   GAO/AIMD-97-20, "Air Traffic Control," 1997.
•   GAO/AIMD-00-21.3.1, "Standards for Internal Control in the Government," 2000.
•   GAO/GGD-00-28, "Human Capital," 2000.
•   "Report of the Advisory Committee on the Future of the U.S. Space Program," December
    1990.
•   NASA OIG, "Assessment of the Relocation of NASA Independent Program Evaluation
    and Assessment Activities to Langley," July 1996.

                                              12
Appendix A

Management Controls Reviewed

We reviewed the following management controls relative to NASA oversight of the cost
estimating function:

•   NPG 7120.5A, "NASA Program and Project Management Processes and Requirements,"
    April 3, 1998

•   NASA Policy Directive 1000.1a, "NASA Strategic Plan," 1998.

•   NASA Performance Plans for Fiscal Year 2000.

•   NASA Strategic Management Handbook (NPG 1000.2), February 2000

Field Work

We conducted field work from December 1999 through April 2000 at NASA Headquarters
and Langley.

Prior Audit Coverage

General Accounting office

"NASA's Independent Cost Estimate," November 1992. GAO issued this report in
response to a congressional request for the GAO to determine whether NASA had
implemented an advisory committee's recommendation to strengthen NASA's independent cost
estimating capability because Congress and the executive branch need accurate cost estimates
in deciding whether to undertake or continue space
programs. The GAO found that NASA's actions to implement an independent cost estimating
function did not meet the intent of the Advisory Committee's recommendation because:

       •   results of formal cost reviews were reported to program officials rather
           than directly to the Administrator,
       •   advice provided to the Administrator on cost estimates was informal
           and undocumented,
       •   cost estimates were reviewed only at the start of new initiatives and not
           at all major decision points over a program's life, and
       •   the cost analysis group did not have adequate staff to perform
           independent estimates at all major decision points.




                                               13
      Appendix B. Centers' Proposed Independent Cost Capability

** Information omitted under authority of exemption (b) (5) of the Freedom of Information
Act.**




                                              14
Appendix B

**Information omitted under authority of exemption (b) (5) of the Freedom of Information
Act.**




                                             15
Appendix C. Reporting Structure for Independent Cost Estimates

  Reporting Structure for IPAO Independent Cost Estimate (ICE)



   IPAO
  Receives
 ICE Request




                              NO                NO              NO
             NO
 Code A*          Code B*                             Center          SMO
                                   Enterprise                                   NO
Request ?         Request ?                          Request?        Request?
                                   Request?
                                                                                     STOP


     YES                YES              YES             YES
                                                                         YES


  Develop          Develop         Develop           Develop         Develop
   ICE              ICE             ICE               ICE             ICE




                   Report           Report            Report          Report
                    ICE              ICE               ICE             ICE
                     to               to                to              to
                  Code B*          Enterpris          Center          SMO
                                   e




 Report ICE
    to            *NOTES: Code A is the Office of the Administrator.
   Code A
                          Code B is the Office of the CFO.




                                           16
Appendix C




      Reporting Structure for SMO Independent Cost Estimate (ICE)




     SMO
     Receives
      ICE
     Request
                              NO                NO                   NO
                                    Center             Program/             STOP
                Enterprise          Director            Project
                 Request?           Request?           Request?


                      YES                YES                YES


                 Develop            Develop            Develop
                  ICE                ICE                 ICE




                 Report             Report             Report
                   ICE              ICE to               ICE
                    to              Center                to
                Enterprise                             P/PMO*
                                    Director



                                                     *NOTE:
                 Report ICE          Governing       P/PMO is Project/Program
                    to                PMC
                 Governing           Report to       Management Office.
                   PMC              Administrator




                                   17
               Appendix D. Related Requirements Documents

A. OMB Circular A-11, Part III, "Planning, Budgeting, and Acquisition of Capital
   Assets," July 1999.

   Page 535, paragraph 300.4 (d)(1), states:

       Cost and Schedule goals.—The baseline cost and schedule goals should be realistic
       projections, developed through the capital planning process, of the total cost and total
       time to complete the project and include interim cost and schedule goals.


   Page 537, paragraph 300.5 (a), states:

       Background. Good budgeting requires that appropriations for the full costs of asset
       acquisition be enacted in advance to help ensure that all costs and benefits are fully taken
       into account when decisions are made about providing resources. For most spending on
       acquisitions, this rule is followed throughout the Government. When capital assets are
       funded in increments, without certainty if or when future funding will be available, it can
       and occasionally does result in poor planning, acquisition of assets not fully justified,
       higher acquisition costs, project delays, the cancellation of major projects, the loss of
       sunk costs, or inadequate funding to maintain and operate the assets.

   Page 538, paragraph 300.7. Criteria and coverage of exhibit 300B: “Capital Asset Plan
   and Justification,” states:

       (a) Criteria. Exhibit 300B covers major acquisitions, which are those requiring special
           management attention because of their (1) importance to the agency's mission; (2)
           high development, operating, or maintenance costs; (3) high risk; (4) high return; or
           (5) their significant role in the administration of agency programs, finances, property,
           or other resources.

       (b) Coverage for this year. Report on all major acquisitions, including major acquisitions
           of financial management systems and other information technology.

       (c) Future years. You should develop capital plans for all acquisitions, not just the
           major acquisitions covered by the criteria in (a).


   Page 539, paragraph 300.8. Information required: explanation of exhibit 300B: “Capital
   Asset Plan and Justification," states:

       For each asset identified pursuant to section 300.7 (b), you are required to include with
       your initial budget submission the information on capital assets shown in exhibit 300B:
       “Capital Asset plan and Justification.”


  Pages 540-542, paragraph 300.8, Exhibit 300B, Part II, identifies the
  justification and other information required:

       A. Justification
       B. Program management


                                                   18
   Appendix D

      C. Acquisition strategy
      D. Financial basis for selecting the project
      E. Adherence to architecture and infrastructure standards (IT projects only)

  Pages 542-544, paragraph 300.8, Exhibit 300B, Part III, identifies the
  required information for the program's cost, schedule, and performance goals:

      Your Agency's plans must have cost, schedule, and performance goals for all
      proposed and ongoing acquisitions. The establishment and analysis of these goals
      should include a risk assessment that discusses the probability of achieving them.
      …. Once established, current baseline will be used to determine whether the
      acquisition is meeting Congressional policy to achieve at least 90 percent of cost,
      schedule, and performance goals.

      Your planning process is expected to produce acquisition plans that have a high
      probability of successfully achieving goals. You should establish appropriate
      controls to ensure that capital asset acquisitions that are underway are within
      baseline cost, on schedule, and expected to meet the baseline performance levels.

      Complete the following information, entries (A) through (F), for each contract that
      comprises the acquisition.

      A. Description of performance-based system
      B. Original baseline
      C. Current baseline
      D. Variance from current baseline
      E. Latest Revised estimate
      F. Corrective Actions

B. OMB Circular A-109

   Page 5, paragraph 7, Major system acquisition management objectives include:

      f.   Tailor an acquisition strategy for each program. …The strategy could typically
           include: … • Methods for projecting life cycle costs… • Methods for
           analyzing and evaluating contractor and Government risks.

      g.   Maintain a capability to: • Predict, review, assess, negotiate and monitor costs
            for system development, engineering, design, demonstration, test, production,
           operation and support (i.e., life cycle costs). • Assess acquisition cost,
           schedule and performance experience against predictions, and provide such
           assessments for consideration by the agency head at key decision points. •
           Make new assessments where significant costs, schedule or performance
           variances occur. • Estimate life cycle costs during system design concept
           evaluation and selection, full-scale development, facility conversion, and
           production, to ensure appropriate trade-offs among investment costs,
           ownership costs, schedules, and performance. • Use independent cost
           estimates, where feasible, for comparison purposes.




                                                  19
                                                                                        Appendix D

C. NPG 7120.5A

   Page 88, Appendix D, "Responsibilities for Program and Project Management," paragraph
   D.1 (e), states:

       The NASA Chief Engineer is responsible for the following:

       (1) Serving as the process owner for the PAPAC process, including development
          and maintenance of this document.
       (2) Providing ICE’s [Independent Cost Estimates] for proposed new starts.
       (3) Providing for the IAR’s [Independent Annual Reviews], NAR’s
          [Non-Advocate Reviews], and IA’s [Independent Assessments].

   Page 59, Chapter 4, "Program/Project Management System Requirements," paragraph
   4.1.2.2, states:

       [Life Cycle Cost] LCC estimates shall be prepared in support of the following:
       (1) The development of program commitment
       (2) Major reviews
       (3) Budgetary submissions.


D. NHB 1101.3, "The NASA Organization."

   Paragraph 4.2.2, "Responsibilities."

            The CFO is responsible for the following:

            4.2.2.3 Performs economic and cost analyses for Agency assessments of
                    program alternatives.




                                                   20
Appendix E. Management's Response




               21
     Appendix E




22
Appendix E




             23
     Appendix E




24
                        Appendix F. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AE/Chief Engineer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center
Chief Counsel, Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget



                                             25
Appendix F

Non-NASA Federal Organizations and Individuals (Cont.)

Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             26
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Review of NASA's Independent Cost Estimating Capability

Report Number:                                         Report Date: ______________


Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically
     organized.                                          5       4        3         2         1      N/A
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit
     objectives, scope, and methodology.                 5       4        3         2         1      N/A
4.   The report contained sufficient information to
     support the finding(s) in a balanced and            5       4        3         2         1      N/A
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)


       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ____________          No: ____________
Name: ____________________________________
Telephone: ________________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Daniel J. Samoviski, Program Director, Earth and Space Science Audits

Betty G. Weber, Operations Research Manager

Esther A. Judd, Auditor

Nancy C. Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
